CERTIFICATE OF SERVICE
I Gregory H. Teufel, counsel for the Applicants, hereby certify that on this
11th day of December, 2020,1 caused copies of the MOTION FOR EXPEDITED
CONSIDERATION OF THE PETITION FOR A WRIT OF CERTIORARI AND FOR
EXPEDITED MERITS BRIEFING IN THE EVENT THAT THE COURT GRANTS
THE PETITION to be served by electronic mail on the following counsel (pursuant
to agreement of counsel as to method of service):
Michele D. Hangley
Robert A. Wiygul
John G. Coit
Christina C. Matthias
John B. Hill
Hangley Aronchick Segal
Pudlin & Schiller
One Logan Square, 27th Floor
Philadelphia, PA 19103
Counsel for Respondents
Commonwealth of Pennsylvania,
Thomas W. Wolf, and Kathy Boockvar

Barry H. Berke
Dani R. James
Kramer Levin Naftalis &
Frankel LLP
1177 Avenue of the Americas
New York, New York 10036
Counsel for Respondents
Commonwealth of Pennsylvania,
Thomas W. Wolf, and Kathy Boockvar

J. Bart Delone
Chief Deputy Attorney General
Sean A. Kirkpatrick
Senior Deputy Attorney General
PA Office of Attorney General
Strawberry Square, 15th Floor
Harrisburg, PA 17120
Counsel for Respondents
Commonwealth of Pennsylvania,
Thomas W. Wolf, and Kathy Boockvar

Jonathan F. Bloom
Karl S. Myers
Spencer R. Short
Melissa L. Perry
Stradley Ronon Stevens
and Young, LLP
2005 Market Street, Suite 2600
Philadelphia, PA 19103
Counsel for Respondent
Pennsylvania General Assembly

I further certify that all parties required to be served have been served.
/s/ Gregory H. Teufel
Gregory H. Teufel
OGC Law, LLC
1575 McFarland Rd., Suite 201
Pittsburgh, PA 15216

r

«

Telephone: (412) 253-4622
Email: gteufel@ogclaw.net

